      Department of Homeland Security




                Technical Security Evaluation
            of DHS Components at O’Hare Airport
                       (Redacted)




OIG-12-45                                         March 2012

                                                             Office of Inspector General

                                                             U.S. Depar tment of Homeland Secur ity
                                                             Washington, DC 20528




                                      March 6, 2012

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the strengths and weaknesses of the information security controls
implemented by U.S. Customs and Border Protection, U.S. Immigration and Customs
Enforcement, and the Transportation Security Administration based on guidance
provided by the Office of the Chief Information Officer. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations, and a
review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                      Frank Deffer
                                      Assistant Inspector General
                                      Information Technology Audits
Table of Contents/Abbreviations 

Executive Summary .............................................................................................................1

Background ..........................................................................................................................2

Results of Review ................................................................................................................7

     CBP Did Not Comply Fully With DHS Sensitive System Policies...............................7
     Recommendations ........................................................................................................14
     Management Comments and OIG Analysis ................................................................14

     ICE Did Not Comply Fully With DHS Sensitive System Policies..............................18
     Recommendations ........................................................................................................22
     Management Comments and OIG Analysis ................................................................22

     TSA Did Not Comply Fully With DHS Sensitive System Policies.............................25
     Recommendations ........................................................................................................28
     Management Comments and OIG Analysis ................................................................29

Appendices


     Appendix A:           Purpose, Scope, and Methodology.......................................................31 

     Appendix B:           Management Comments to the Draft Report .......................................32 

     Appendix C:           Major Contributors to this Report ........................................................42 

     Appendix D:           Report Distribution ..............................................................................43 


Abbreviations
     BIA                                    Business Impact Assessment
     CBP                                    U.S. Customs and Border Protection
     CIO                                    Chief Information Officer
     CISO                                   Chief Information Security Officer
     COOP                                   Continuity of Operations Plan
     DHS                                    Department of Homeland Security
     DHS Directive 4300A                    DHS Sensitive Systems Policy Directive 4300A
     DHS 4300A Handbook                     DHS 4300A Sensitive Systems Handbook
     DVD                                    Digital Video Disc
     FIPS Federal                                    Information Processing Standards Publication
     GAO                                    U.S. Government Accountability Office
     GSS                                    general support system
     ICE                                    U.S. Immigration and Customs Enforcement
     IT                                     information technology
     LAN                                    local area network
     MEF                                    mission essential functions
     NII Systems                            Non-Intrusive Inspection Systems
     NIST                                   National Institute of Standards and Technology
     OIG                                    Office of Inspector General




OneNet   DHS One Network
ORD      Chicago O'Hare International Airport
PALS     Portable Automated Lookup System
PIA      Privacy Impact Assessment
POE      port of entry
PTA      Privacy Threshold Analysis
RAC      Resident Agent in Charge
SAC      Special Agent in Charge
SP       Special Publication
STIP     Security Technology Integrated Program
TSA      Transportation Security Administration
TSANet   Transportation Security Administration Network
TSE      transportation security equipment
WAN      wide area network
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                      As part of our Technical Security Evaluation Program, we
                      evaluated technical and information security policies and
                      procedures of Department of Homeland Security components at
                      Chicago O'Hare International Airport. U.S. Customs and Border
                      Protection, U.S. Immigration and Customs Enforcement, and the
                      Transportation Security Administration operate information
                      technology systems that support homeland security operations at
                      this airport.

                      Our evaluation focused on how these components had
                      implemented computer security operational, technical, and
                      management controls at the airport and nearby locations. We
                      performed onsite inspections of the areas where these assets were
                      located, interviewed departmental staff, and conducted technical
                      tests of internal controls. We also reviewed applicable policies,
                      procedures, and other relevant documentation.

                      The information technology security controls implemented at these
                      sites have deficiencies that, if exploited, could result in the loss of
                      confidentiality, integrity, and availability of the components'
                      information technology systems. Specifically, these components
                      need to improve their physical security and environmental controls
                      for telecommunications equipment and servers. These components
                      also need to improve their management controls by upgrading
                      system information to document security controls more fully.




      Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                              Page 1

Background
                          We designed our Technical Security Evaluation Program to
                          provide senior Department of Homeland Security (DHS) officials
                          with timely information on whether they had properly
                          implemented DHS information technology (IT) security policies at
                          critical sites. Our program is based on DHS Sensitive Systems
                          Policy Directive 4300A, version 8.0 (DHS Directive 4300A),
                          which applies to all DHS components. It provides direction to
                          managers and senior executives regarding the management and
                          protection of sensitive systems. DHS Directive 4300A also
                          outlines policies relating to the operational, technical, and
                          management controls that are necessary for ensuring confidentiality,
                          integrity, availability, authenticity, and nonrepudiation within the
                          DHS IT infrastructure and operations. A companion document,
                          the DHS 4300A Sensitive Systems Handbook, version 7.2.1.1 (DHS
                          4300A Handbook), provides detailed guidance on the
                          implementation of these policies. For example, according to the
                          DHS 4300A Handbook,

                                   Components shall categorize systems in accordance with
                                   [Federal Information Processing Standards Publication]
                                   FIPS 199, Standards for Security Categorization of Federal
                                   Information and Information Systems and shall apply the
                                   appropriate NIST SP 800-53 controls.1

                          DHS IT security policies are organized under operational, technical,
                          and management controls. According to DHS Directive 4300A,
                          these controls are defined as follows:

                          •   Operational Controls - Focus on mechanisms primarily
                              implemented and executed by people. These controls are
                              designed to improve the security of a particular system or
                              group of systems and often rely on management and technical
                              controls.

                          •   Technical Controls - Focus on security controls executed by
                              information systems. These controls provide automated
                              protection from unauthorized access or misuse. They facilitate
                              detection of security violations and support security
                              requirements for applications and data.



1
 National Institute of Standards and Technology (NIST) Special Publication (SP) 800-53, Recommended
Security Controls for Federal Information Systems.

          Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                                  Page 2

                           •	 Management Controls - Focus on managing both the system
                              information security controls and system risk. These controls
                              consist of risk mitigation techniques and concerns normally
                              addressed by management.

                           Our evaluation focused on U.S. Customs and Border Protection
                           (CBP), U.S. Immigration and Customs Enforcement (ICE), and the
                           Transportation Security Administration (TSA), which have
                           activities at Chicago O'Hare International Airport (ORD) and rely
                           on a range of IT assets to support their respective missions. As a
                           Category X airport, ORD is one of the airports with the largest
                           number of enplanements, processing approximately 67 million
                           passengers in 2010.2

                           At ORD, 255 CBP Officers and Agricultural Specialists staff 68
                           primary passenger lanes, review flight data for terrorist-related
                           activities, and process fines and civil penalties. Additionally, 200
                           CBP staff at nearby locations use IT assets to perform cargo
                           manifest review and targeting, outbound passenger review and
                           targeting, and inbound mail processing.

                           The following CBP locations were reviewed:

                               •	   ORD Terminal 5
                               •	   ORD International Mail Branch
                               •	   Port Office, Rosemont, IL
                               •	   Management Inspection Division and the Office of 

                                    Professional Responsibility, Rosemont, IL


                           CBP staff at these locations use the following systems:

                               •	 The Central Field Local Area Network (LAN). This
                                  system provides the general support network infrastructure
                                  for the CBP end-users' electronic communication for the
                                  performance of their daily official duties.

                               •	 The DHS One Network (OneNet). The DHS OneNet is a
                                  general support system (GSS) providing all wide area
                                  network communications for the servicewide DHS
                                  sensitive but unclassified environment.



2
 There are five categories of airports-X, I, II, III, and IV. Category X airports have the largest number of
enplanements and category IV airports have the smallest number.

          Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                                   Page 3

                              •	 Global Entry. The Global Entry program benefits
                                 preapproved, low-risk air travelers by allowing them to
                                 avoid passport control lines through the use of the
                                 automated self-service Global Entry kiosk to clear customs,
                                 immigration, and agriculture. The Global Entry program
                                 also benefits CBP and participating foreign governments by
                                 allowing them to focus their efforts on unknown and
                                 potentially higher risk air travelers, thereby facilitating the
                                 movement of people more efficiently and effectively, while
                                 serving as a force multiplier for CBP.

                              •	 Non-Intrusive Inspection (NII) Systems. NII Systems
                                 enable CBP to perform more effective and efficient
                                 nonintrusive inspections and screenings of cars, trucks,
                                 railcars, sea containers, personal luggage, packages,
                                 parcels, and flat mail. NII Systems are designed to detect
                                 illicit goods, such as drugs, money, guns, ammunition,
                                 agricultural items, and explosives; and chemical,
                                 biological, and nuclear agents.

                              •	 TECS.3 TECS supports enforcement and inspection
                                 operations for several components of DHS and is a vital
                                 tool for the law enforcement and intelligence communities
                                 at the local, state, tribal, and federal government levels.
                                 TECS comprises several subsystems that include
                                 enforcement, inspection, and intelligence records relevant
                                 to the antiterrorist and law enforcement mission of CBP
                                 and the other federal agencies it supports.

                          ICE's office of the Resident Agent in Charge (RAC) identifies and
                          investigates security issues with a foreign nexus at ORD. The
                          RAC's areas of responsibility at ORD include the following:

                              •	 Investigations of internal criminal conspiracies involving
                                 employees of companies doing business at ORD
                              •	 Identification, interdiction, and apprehension of currency
                                 smugglers from ORD
                              •	 Enforcement activities on internal drug-smuggling carriers
                                 arriving at ORD
                              •	 Enforcement actions that center on the interception of
                                 parcels containing illegal narcotics and initiation of
                                 controlled deliveries on these parcels if appropriate

3
  Prior to the government realignment, TECS was owned by the U.S. Department of Treasury, U.S.
Customs Service, and operated under the name Treasury Enforcement Communication System. In 2008,
the application was renamed "TECS" to eliminate the association with the U.S. Department of Treasury.

          Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                                  Page 4

                    •	 Investigations of illegal workers having unescorted access
                       to secure areas of the airport
                    •	 Investigations aimed at protecting critical infrastructure
                       industries that are vulnerable to sabotage, attack, or
                       exploitation

                The following ICE locations were reviewed:

                    •	 Resident Agent in Charge, Des Plaines, IL
                    •	 Management Inspection Division and the Office of 

                       Professional Responsibility, Rosemont, IL


                ICE staff use the Special Agent in Charge (SAC) Midwest GSS.
                The SAC Midwest GSS supports the ICE Office of Investigations
                mission by providing access to law enforcement data processing
                resources available through DHS OneNet. Interconnectivity with
                DHS OneNet further enhances the mission support capabilities of
                the SAC GSS by allowing users remote access through secure
                virtual private networking and access to the public Internet. Local
                data processing resources directly supported by the SAC Midwest
                GSS are file sharing and print services.

                TSA's activities include screening passengers and baggage on all
                departing flights at ORD. To support these activities, TSA has
                operations in each of the terminals at ORD, as well as at a nearby
                office building.

                The following TSA locations were reviewed:

                    •	 ORD Terminals 1, 2, 3, and 5
                    •	 Office of the Federal Security Director, Rosemont, IL

                TSA staff at these locations use the following systems:

                    •	 End User Computing. This system provides TSA
                       employees and contractors with desktops, laptops, local
                       printers, and other end user computing applications at the
                       various DHS/TSA locations and sponsored sites.

                    •	 Infrastructure Core System. This system provides core
                       services, including file and print services, to the entire TSA
                       user community.

                    •	 The Security Technology Integrated Program (STIP). The
                       STIP combines many different types of components,
                       including transportation security equipment (TSE), servers
Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                        Page S

                         and storage, software/application products, and databases.
                         A user physically accesses the TSE to perform screening or
                         other administrative functions.

                    •	 The Transportation Security Administration Network
                       (TSANet). Owing to its geographically dispersed topology,
                       the TSANet GSS is considered a wide area network (WAN).
                       The TSANet GSS consists of the WAN backbone and LAN
                       at each site that connects to the backbone. The TSANet
                       GSS provides connectivity for airports and their users.




Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                        Page 6

Results of Review
     CBP Did Not Comply Fully With DHS Sensitive System Policies
             CBP could strengthen operational, technical, and management controls for
             its servers, routers, and switches operating at ORD. For example, CBP
             could improve environmental controls and the placement of
             telecommunications equipment. CBP also should scan
             periodically to identify vulnerabilities. Additionally, CBP should update
             ORD systems documentation in the areas of security categorization,
             privacy compliance, and business impact analysis. Collectively, these
             deficiencies could place at risk the confidentiality, integrity, and
             availability of the data stored, transmitted, and processed by CBP at ORD.

                      Operational Controls

                      Onsite implementation of operational controls that did not conform
                      fully to DHS policies included inadequate temperature and
                      humidity controls and the inappropriate placement of IT
                      equipment. Additionally, onsite IT assets may be insufficient to
                      ensure continuity of CBP operations at ORD.

                      Environmental Controls

                      In three of the five CBP server rooms at ORD, the temperature was
                      higher and the humidity was lower than recommended by the DHS
                      4300A Handbook. In addition, several of the server rooms and
                      wire closets did not contain temperature or humidity sensors.

                      According to the DHS 4300A Handbook,

                               The following should be considered when developing a
                               strategy for temperature and humidity control:

                               •	 Temperatures in computer storage areas should be held
                                  between 60 and 70 degrees Fahrenheit. Most systems
                                  will continue to function when temperatures go beyond
                                  this range, but the associated risk to data is increased.
                                  (Check individual system documentation for the proper
                                  levels.)

                               •	 Humidity should be at a level between 35 percent and
                                  65 percent. Most systems will continue to function
                                  when humidity goes beyond this range, but the



      Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                              Page 7

                              associated risk to data is increased. (Check individual
                              system documentation for the proper levels.)

                CBP needs to better monitor and control the humidity and
                temperature in its server rooms at ORD. Low humidity can result
                in static, and high temperatures can damage sensitive elements of
                computer systems.

                Inappropriate Placement of Telecommunications Equipment

                Telecommunications equipment, including racks, cables, and
                network switches, connects IT resources to a LAN. In two
                locations at ORD, CBP has placed telecommunications equipment
                in rooms containing water heaters (see figure 1). If these water
                heaters malfunction, there is a risk that CBP's telecommunications
                equipment could suffer water damage, preventing users from
                accessing the IT resources they need to perform their mission.




                    Figure 1: Water heater in room with CBP telecommunications rack.

                At another location at ORD, CBP has placed telecommunications
                equipment in a supply room/office. At this location, there are no
                barriers protecting the telecommunications equipment. There is a
                risk that CBP telecommunications equipment could be damaged
                when supplies are moved into or out of this room.

                According to DHS Directive 4300A,

                         Controls for deterring, detecting, restricting, and regulating
                         access to sensitive areas shall be in place and shall be
                         sufficient to safeguard against possible loss, theft,
                         destruction, damage, hazardous conditions, fire, malicious
                         actions, and natural disasters.

Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                        Page S

                          CBP's computer infrastructure may deteriorate under adverse
                          environmental conditions, preventing access to automated systems
                          that are necessary for staff to perform their mission.

                          Redundant Telecommunications Services

                          In May 2008, we reported that a single point of failure contributed
                          to a network outage at Los Angeles International Airport.4 We
                          also recommended that CBP determine whether actions taken to
                          reduce the potential for a network outage should also be performed
                          at other locations. In response, CBP established the Systems
                          Availability Project to implement corrective actions at other CBP
                          ports of entry (POEs).

                          The Systems Availability Project included providing redundant
                          communications, power, and computing capabilities at field
                          locations and central data center facilities. The Systems
                          Availability Project established redundant telecommunications
                          services for a prioritized list of




                          According to DHS 4300A Handbook Attachment M, Tailoring the
                          NIST SP 800-53 Security Controls,

                                   Risk and Infrastructure - A risk-based management
                                   decision is made on the requirements for telecommunication
                                   services. The availability requirements for the system will
                                   determine the time period within which the system
                                   connections must be available. If continuous availability is
                                   required, redundant telecommunications services may be an
                                   option. Once a decision is made on the requirements for
                                   telecommunications services, agreements must be made
                                   between the appropriate officials involved.




4
 Lessons Learned from the August 11, 2007 Nettork Outage at Los Angeles International Airport
(OIG-08-58), May 2008.

          Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                                  Page 9

                                   Risk - NIST 800-53 allows for downgrading this security
                                   control for availability. This is appropriate when (1) the
                                   availability impact level is upgraded to meet the "high
                                   water mark" process, (2) supported by an organizational
                                   risk assessment, [and] (3) does not impact the security
                                   relevant information at the system level.

                          CBP should conduct a risk assessment to determine whether
                          redundant telecommunications services would be appropriate for
                          staff at these three locations.

                          Business Continuity

                          Airport authorities have contingency plans in place to deal with
                          power outages, including diverting flights to reduce the burden on
                          passengers and the airport's infrastructure. CBP's business
                          continuity plan for dealing with power outages at ORD includes
                          the use of 18 laptops that contain the Portable Automated Lookout
                          System (PALS).5 However, the 18 PALS laptops may not be
                          sufficient to process passengers through the 68 passenger
                          processing lanes at ORD during an extended power outage. Since
                          the PALS laptops have a battery life of only 2 hours, CBP may not
                          be able to process all incoming passengers during a power outage
                          before the laptops lose battery power.

                          According to the DHS 4300A Handbook,

                                   DHS must have the capability to ensure continuity of
                                   essential functions under all circumstances.

                          CBP staff at ORD proposed, as an interim solution, the purchase of
                          additional long-life batteries.

                          Technical Controls

                          In October 2008, we reported that CBP was not regularly scanning




5
  PALS is a contingency system used when CBP Inspection Officers do not have connectivity to TECS.
PALS utilizes extracts of the TECS database, which identifies individuals who should be denied entry.
6
  Technical Security Evaluation of DHS Activities at Los Angeles International Airport (OIG-09-01),
October 2008.

          Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                                 Page 10

                CBP will continue migrating users from                 through the
                end of fiscal year 2011. CBP's plans to address
                                are dependent on funding, and the schedule has not
                yet been determined.

                According to the DHS 4300A Handbook,

                         Components shall manage systems to reduce vulnerabilities
                         through vulnerability testing and management, promptly
                         installing patches, and eliminating or disabling unnecessary
                         services.

                CBP must be able to scan its systems periodically to identify
                vulnerabilities, and then take corrective actions to reduce these
                vulnerabilities.

                Management Controls

                CBP's implementation of management controls for systems
                operating at ORD did not conform fully to DHS policies.
                Specifically, CBP could improve the documentation for these
                systems in the areas of security categorization, privacy compliance,
                and business impact analysis.

                System Security Categorization

                CBP has assessed the Central Field LAN's security categorization
                as moderate for confidentiality, integrity, and availability.
                However, CBP staff use the Central Field LAN to perform border
                and transportation security activities. DHS guidance recommends
                that systems that are used for border and transportation security
                activities have a high security categorization.

                For example, the DHS FIPS 199 Workbook, version 8, includes the
                following descriptions for the border and transportation security
                integrity impact levels:

                         Unauthorized modification or destruction of information
                         associated with ensuring security of transportation and
                         infrastructure networks, facilities, vehicles, and personnel
                         within the United States may seriously affect mission
                         operations or result in the loss of human life. Unauthorized
                         modification or destruction of information affecting
                         antiterrorism information may adversely affect mission
                         operations in a manner that results in unacceptable damage

Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                       Page 11

                          should be denied entry. Because personally identifiable
                          information is installed on the Central Field LAN, a PIA is needed.

                          According to DHS' Privacy Impact Assessments (PIA) Official
                          Guidance,

                                   A PIA should be completed for any program, system,
                                   technology, or rulemaking that involves personally
                                   identifiable information. Personally identifiable
                                   information is information in a program, system, online
                                   collection, or technology that permits the identity of an
                                   individual to be directly or indirectly inferred, including
                                   any other information which is linked or linkable to that
                                   individual regardless of whether the individual is a U.S.
                                   citizen, lawful permanent resident, visitor to the U.S., or
                                   employee or contractor to the Department.

                          Without identifying whether systems contain personally
                          identifiable information, CBP staff cannot be assured they are
                          addressing all privacy compliance activities.

                          Business Impact Assessments

                          Although CBP has prepared a Business Impact Assessment (BIA)
                          for the Central Field LAN, it has not prepared a BIA for the other
                          four systems operating at ORD. According to the DHS 4300A
                          Handbook,

                                   The Business Impact Assessment (BIA) is essential in the
                                   identification of critical DHS assets.

                          The BIA helps to identify and prioritize critical IT systems and
                          components. BIAs are also essential for contingency planning.
                          For example, a BIA would allow CBP to identify maximum
                          tolerable downtime, the resources required to resume
                          mission/business processes, and recovery priorities for system
                          resources.

                          In response to our requests for the BIAs associated with the
                          identified systems, CBP staff at ORD said that BIAs were required
                          only for Operations.8 Without performing a BIA, CBP cannot be
                          assured that its backup and recovery plans meet the needs of the


8
 According to NIST SP 800-34 Rev. 1, Contingency Planning Guide for Federal Information Systems,
"COOP focuses on restoring an organization's mission essential functions (MEF) at an alternate site and
performing those functions for up to 30 days before returning to normal operations."

          Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                                 Page 13

                business owners (e.g., recovery time objective and recovery point
                objective).

       Recommendations
                We recommend that the CBP Chief Information Officer (CIO):

                Recommendation #1: Relocate telecommunications equipment so
                that the potential for accidental damage is minimized; obtain
                temperature and humidity sensors, and ensure that server rooms are
                maintained within DHS' recommended ranges.

                Recommendation #2: Explore near- and long-term solutions to
                its business continuity issues at ORD. Potential solutions would
                include purchasing additional extended-life laptop batteries,
                analyzing how many passengers per hour are processed using
                PALS laptops, and purchasing enough PALS laptops to process
                ORD passengers within an acceptable timeframe.

                Recommendation #3: Determine if it is cost effective to establish
                redundant telecommunications services at         identified CBP
                locations.

                Recommendation #4: Perform scans
                periodically to identify vulnerabilities, and then take corrective
                actions to reduce these vulnerabilities.

                Recommendation #S: Update the Central Field LAN's FIPS 199
                Workbook with all relevant information.

                Recommendation #6: Prepare a PIA for the Central Field LAN.

                Recommendation #7: Prepare the missing BIAs for the identified
                CBP systems operating at ORD.


       Management Comments and OIG Analysis
                We obtained written comments on a draft of this report from the
                CBP Assistant Commissioner for Internal Affairs. We have
                included a copy of the comments in their entirety at appendix B.
                The CBP Assistant Commissioner concurred with all seven
                recommendations.




Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                       Page 14

                Recommendation 1

                In response to recommendation 1, CBP will move two racks,
                relocate cables, and purchase temperature and humidity sensors.
                These actions are dependent upon available funding.

                OIG Analysis

                The actions being taken satisfy the intent of this recommendation.
                This recommendation is considered resolved, but will remain open
                until CBP provides documentation to support that the planned
                corrective actions are completed.

                Recommendation 2




                OIG Analysis

                CBP's actions satisfy the intent of this recommendation. However,
                CBP needs to address the other issues we raised, including
                obtaining sufficient resources, such as long-life batteries, to
                process passengers in a timely manner during an outage. This
                recommendation is considered resolved, but will remain open until
                CBP provides documentation to support that the planned corrective
                actions are completed.

                Recommendation 3

                In response to recommendation 3, CBP has determined that
                redundant communications circuits are not needed for locations
                with fewer than 50 employees. Additionally, according to CBP, it
                has taken actions at the Port Office to install redundant circuits and
                will provide evidence to document that this has occurred.
                OIG Analysis

                We agree that the actions being taken satisfy the intent of this
                recommendation. This recommendation is considered resolved,
                but will remain open until CBP provides documentation to support
                that the planned corrective actions are completed.



Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                       Page 1S

                          Recommendation 4

                          In response to recommendation 4, CBP is routinely performing
                          vulnerability assessment scans of its               Additionally,
                          CBP is taking actions to decommission and replace these servers.

                          OIG Analysis

                          We agree that the actions being taken satisfy the intent of this
                          recommendation. This recommendation is considered resolved,
                          but will remain open until CBP provides documentation to support
                          that the planned corrective actions are completed.

                          Recommendation S

                          In response to recommendation 5, CBP has removed PALS data
                          from its Central Field LAN. According to CBP, because the PALS
                          data has been removed, the FIPS Workbook data for the Central
                          Field LAN are now accurate. CBP requests that we close this
                          recommendation.

                          OIG Analysis

                          We do not agree that CBP has addressed this recommendation in
                          full. The inclusion of PALS data on the Central Field LAN was
                          only one of the reasons to update the FIPS 199 Workbook. For
                          example, in this report we also documented that the FIPS 199
                          Workbook may not be accurate as it did not include all activities
                          supported by the Central Field LAN.




                          Recommendation 5 is considered unresolved and open pending
                          verification that the actions being taken satisfy the intent of this
                          recommendation.


9
 Lessons Learned from the August 11, 2007, Nettork Outage at Los Angeles International Airport (OIG-
08-58), May 2008.

          Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                                 Page 16

ICE Did Not Comply Fully With DHS Sensitive System Policies
        ICE could strengthen operational and management controls for its servers
        and switches operating at facilities near ORD. For example, ICE could
        improve environmental controls for these systems. ICE should also
        determine whether redundant telecommunications services are cost
        effective for its ORD locations. Additionally, ICE should continue efforts
        to document the systems at ORD more accurately. Collectively, these
        deficiencies could place at risk the confidentiality, integrity, and
        availability of the data stored, transmitted, and processed by ICE at ORD.

                 Operational Controls

                 Onsite implementation of operational controls that did not conform
                 fully to DHS policies included inadequate temperature and
                 humidity controls and the inappropriate placement of IT equipment.

                 Environmental Controls

                 ICE's operational controls over wire closets and server rooms at
                 ORD locations could be strengthened. For instance, one of ICE's
                 server rooms did not have automated fire suppression or a smoke
                 detector. Additionally, there was excess storage in this room (see
                 figure 2). Further, there were no temperature or humidity sensors.
                 At this location, the humidity and temperature were not within the
                 ranges recommended by DHS server room guidance.




                              Figure 2: Storage in room with ICE IT equipment.

                 ICE plans to relocate equipment at this site to a more appropriate
                 facility. However, these plans have been delayed owing to budget
                 constraints. Additionally, according to ICE staff, this site is
                 exempted from government fire suppression requirements because
                 ICE is occupying less than 35,000 square feet and the offices are
                 not above the fifth floor.

 Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                        Page 1S

                Although the humidity in an ICE server room at a second location
                was within DHS server room guidance, no humidity sensor was
                present.

                According to DHS Directive 4300A,

                         Controls for deterring, detecting, restricting, and regulating
                         access to sensitive areas shall be in place and shall be
                         sufficient to safeguard against possible loss, theft,
                         destruction, damage, hazardous conditions, fire, malicious
                         actions, and natural disasters.

                According to the DHS 4300A Handbook,

                         The following should be considered when developing a
                         strategy for temperature and humidity control:

                         •	 Temperatures in computer storage areas should be held
                            between 60 and 70 degrees Fahrenheit. Most systems
                            will continue to function when temperatures go beyond
                            this range, but the associated risk to data is increased.
                            (Check individual system documentation for the proper
                            levels.)

                         •	 Humidity should be at a level between 35 percent and
                            65 percent. Most systems will continue to function
                            when humidity goes beyond this range, but the
                            associated risk to data is increased. (Check individual
                            system documentation for the proper levels.)

                ICE needs to better monitor and control the humidity and
                temperature in its server rooms at ORD. Low humidity can result
                in static, and high temperatures can damage sensitive elements of
                computer systems.

                Redundant Telecommunications Services

                ICE has not established redundant telecommunications services at
                its ORD locations. Specifically, only one telecommunications
                circuit services the users at each of the two locations. As a result,
                performance of mission-critical activities at these locations is
                vulnerable to disruptions in the event of a telecommunications
                failure.



Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                       Page 19

                According to DHS 4300A Handbook Attachment M, Tailoring the
                NIST SP 800-53 Security Controls,

                         Risk and Infrastructure - A risk-based management
                         decision is made on the requirements for telecommunication
                         services. The availability requirements for the system will
                         determine the time period within which the system
                         connections must be available. If continuous availability is
                         required, redundant telecommunications services may be an
                         option. Once a decision is made on the requirements for
                         telecommunications services, agreements must be made
                         between the appropriate officials involved.

                         Risk - NIST 800-53 allows for downgrading this security
                         control for availability. This is appropriate when (1) the
                         availability impact level is upgraded to meet the "high
                         water mark" process, (2) supported by an organizational
                         risk assessment, [and] (3) does not impact the security
                         relevant information at the system level.

                ICE should conduct a risk assessment to determine whether
                redundant telecommunications services would be appropriate for
                staff at these two locations.

                Management Controls

                ICE's implementation of management controls for systems
                operating at ORD did not conform fully to DHS policies.
                Specifically, ICE should establish BIAs for its systems operating at
                ORD and also better document the accreditation boundaries for
                these systems.

                Missing Business Impact Assessment

                ICE had not prepared a BIA for SAC Midwest GSS. According to
                the DHS 4300A Handbook,

                         The Business Impact Assessment (BIA) is essential in the
                         identification of critical DHS assets.

                The BIA helps to identify and prioritize critical IT systems and
                components. BIAs are also essential for contingency planning.
                For example, a BIA would allow ICE to identify maximum
                tolerable downtime, the resources required to resume
                mission/business processes, and recovery priorities for system
                resources. Without performing a BIA, ICE cannot be assured that

Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                       Page 20

       Recommendations
                We recommend that the ICE CIO:

                Recommendation #S: Improve physical security and
                environmental controls at ORD sites by obtaining smoke detectors
                and humidity/temperature sensors; ensure that server rooms are
                maintained within DHS' recommended temperature and humidity
                ranges; and provide barriers protecting IT infrastructure from being
                inadvertently damaged in a supply room.

                Recommendation #9: Determine if it is cost effective to establish
                redundant telecommunications services at the two identified ICE
                locations.

                Recommendation #10: Prepare a BIA for the SAC Midwest GSS.

                Recommendation #11: Continue to establish nationwide systems
                to resolve known deficiencies with the ICE Midwest GSS
                accreditation boundaries.

       Management Comments and OIG Analysis
                We obtained comments on a draft of this report from ICE's Chief
                Financial Officer. We have included a copy of the comments in
                their entirety at appendix B. Separately, ICE provided evidence
                that a fire extinguisher is now outside the server room. This action
                will be included in the body of the report and the wording "fire
                extinguisher" will be removed from the recommendation.

                ICE did not concur with recommendations 8, 9, and 10. ICE
                concurred with recommendation 11.

                Recommendation S

                ICE did not concur with this recommendation. In response to
                recommendation 8, ICE acknowledged the physical and
                environmental deficiencies in its office. However, ICE cannot
                require building management to retrofit one suite in the dual-use
                facility, and the building manager did not agree to renovate the
                ICE suite. Further, according to ICE, there are no funds available
                to relocate. ICE requests that OIG consider this recommendation
                closed.

                OIG Analysis


Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                       Page 22

                             We do not agree that this recommendation should be closed.
                             Although ICE may not currently have the funding to relocate to a
                             more appropriate facility, ICE should enact compensating physical
                             and environmental controls. For example, ICE should assess the
                             feasibility of installing smoke detectors. Recommendation 8 is
                             considered unresolved and open until ICE provides documentation
                             to support that the planned corrective actions are completed.

                             Recommendation 9

                             ICE did not concur with this recommendation. In response to
                             recommendation 9, ICE documented its Office of the Chief
                             Information Officer Enterprise Operations process for determining
                             which sites require redundant communications. According to ICE,
                             most RAC offices are near a SAC office where redundancy exists.
                             Additionally, to provide redundancy at well over 600 field sites
                             would cost millions of dollars. Further, a Continuity of Operations
                             Plan (COOP) is currently in place should the need arise. ICE
                             requests that OIG consider this recommendation closed.

                             OIG Analysis

                             We agree with ICE's response and have closed this
                             recommendation.

                             Recommendation 10

                             ICE did not concur with recommendation 10. According to ICE,
                             DHS does not provide a BIA template and ICE does not have a
                             requirement for a BIA for individual systems. ICE's Disaster
                             Recovery Branch maintains an enterprise-level BIA and updates it
                             as necessary. Further, ICE will have a BIA when the new
                             nationwide Type Accreditation package receives an authorization
                             to operate. ICE requests that OIG consider this recommendation
                             closed.

                             OIG Analysis

                             We do not agree that this recommendation should be closed.
                             Although DHS guidance is not clear concerning BIAs, NIST has
                             provided government-wide guidance and templates in this area.11
                             For example, according to NIST SP 800-34,



11
     NIST SP 800-34 Rev. 1, Contingency Planning Guide for Federal Information Systems.

             Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                                    Page 23

                         COOP functions are subject to a process-focused BIA;
                         federal information systems are subject to a system-focused
                         BIA.

                Recommendation 10 is considered unresolved and open until ICE
                provides documentation to support that the planned corrective
                actions are completed.

                Recommendation 11

                In response to recommendation 11, ICE is currently developing a
                new security authorization package to address the IT assets at
                Chicago O'Hare. ICE will assess the accreditation boundary at
                ORD and other sites before obtaining the new authorization to
                operate. The estimated completion date is December 2011.

                OIG Analysis

                The actions being taken satisfy the intent of this recommendation.
                This recommendation is considered resolved, but will remain open
                until ICE provides documentation to support that the planned
                corrective actions are completed.




Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                       Page 24

TSA Did Not Comply Fully With DHS Sensitive System Policies
        TSA could strengthen operational, technical, and management controls for
        its servers operating at facilities near ORD. For example, TSA could
        improve environmental and contingency planning controls. TSA should
        also perform vulnerability scans on all servers at ORD. Additionally, TSA
        should prepare BIAs for the IT systems operating at ORD. Collectively,
        these deficiencies could place at risk the confidentiality, integrity, and
        availability of the data stored, transmitted, and processed by TSA at ORD.

                 Operational Controls

                 Onsite implementation of operational controls that did not conform
                 fully to DHS policies included inadequate temperature and
                 humidity controls. Additionally, onsite IT assets may be
                 insufficient to ensure continuity of TSA operations at ORD.

                 Environmental Controls

                 TSA's operational controls over server rooms could be
                 strengthened. Specifically, during our fieldwork, all seven server
                 rooms had lower humidity than recommended by DHS guidance.
                 Further, only one of the seven server rooms' temperature was
                 within the range recommended by DHS guidance.

                 According to the DHS 4300A Handbook,

                    The following should be considered when developing a strategy
                    for temperature and humidity control:

                    •	 Temperatures in computer storage areas should be held
                       between 60 and 70 degrees Fahrenheit. Most systems will
                       continue to function when temperatures go beyond this
                       range, but the associated risk to data is increased. (Check
                       individual system documentation for the proper levels.)

                    •	 Humidity should be at a level between 35 percent and 65
                       percent. Most systems will continue to function when
                       humidity goes beyond this range, but the associated risk to
                       data is increased. (Check individual system documentation
                       for the proper levels.)




 Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                        Page 2S

                TSA needs to better monitor and control the humidity and
                temperature in its server rooms. Low humidity can result in static,
                and high temperatures can damage sensitive elements of computer
                systems.

                After our fieldwork, TSA decommissioned servers and removed
                them from two of the server rooms. Additionally, TSA has
                adjusted the temperature and humidity in two of the other server
                rooms to ensure that they are within DHS guidance. Further, TSA
                is working to bring the temperature and humidity in the remaining
                three server rooms to within DHS guidance.

                Redundant Telecommunications Services




                According to DHS 4300A Handbook Attachment M, Tailoring the
                NIST SP 800-53 Security Controls,

                         Risk and Infrastructure - A risk-based management
                         decision is made on the requirements for telecommunication
                         services. The availability requirements for the system will
                         determine the time period within which the system
                         connections must be available. If continuous availability is
                         required, redundant telecommunications services may be an
                         option. Once a decision is made on the requirements for
                         telecommunications services, agreements must be made
                         between the appropriate officials involved.

                         Risk - NIST 800-53 allows for downgrading this security
                         control for availability. This is appropriate when (1) the
                         availability impact level is upgraded to meet the "high
                         water mark" process, (2) supported by an organizational
                         risk assessment, [and] (3) does not impact the security
                         relevant information at the system level.

                Currently, TSA is investigating the use of a local metropolitan area
                network at ORD to improve reliability and also to reduce costs by
                consolidating the number of circuits by interconnecting the
                terminals via optical fiber.

Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                       Page 26

                As noted earlier in this report, CBP has established redundant
                telecommunications services for its ORD Terminal 5 location.
                TSA may utilize the same redundant DHS OneNet circuits being
                used by CBP as its alternative circuits to provide cost-effective
                redundancy at TSA's ORD terminal locations.

                Technical Controls

                Some of TSA's servers at ORD are part of the STIP IT system (see
                figure 3). These STIP servers are not attached to a wide area
                network and have not been scanned for vulnerabilities. TSA's
                Assessment and Authorization process had not completely
                assessed these stand-alone systems. Further, a recent TSA
                Technical Vulnerability Audit of the TSA network did not
                document the existence of these servers as they were not within the
                audit scope. As a result, TSA had not performed vulnerability
                scans on these servers at the time of our fieldwork. Without
                performing scans to identify vulnerabilities, TSA may not be
                taking the necessary corrective actions to reduce the impact of
                these vulnerabilities. After our fieldwork, TSA Information
                Assurance and Cyber Security Division staff scanned the STIP
                servers for vulnerabilities and are working to resolve them.



                                         _




                Figure 3: TSA rack diagram from internal TSA report (left) and picture of
                the same TSA cabinet onsite (right).

                According to the DHS 4300A Handbook,

                         Components shall conduct vulnerability assessments and/or
                         testing to identify security vulnerabilities on information
                         systems containing sensitive information annually or

Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                       Page 27

                         whenever significant changes are made to the information
                         systems.

                Management Controls

                TSA's implementation of management controls for systems
                operating at ORD did not conform fully to DHS policies.
                Specifically, TSA should prepare BIA documentation for these
                systems.

                Missing Business Impact Assessments

                TSA has not prepared BIAs for the four systems operating at ORD.
                According to the DHS 4300A Handbook,

                         The Business Impact Assessment (BIA) is essential in the
                         identification of critical DHS assets.

                The BIA helps to identify and prioritize critical IT systems and
                components. BIAs are also essential for contingency planning.
                For example, a BIA would allow TSA to identify maximum
                tolerable downtime, the resources required to resume
                mission/business processes, and recovery priorities for system
                resources.

                TSA currently has an enterprise-level BIA process to address
                systems that have been identified as mission critical. TSANet is
                the only TSA-designated mission-critical system residing at ORD.

                Without performing a BIA, TSA cannot be assured that its backup
                and recovery plans meet the needs of the business owners
                (e.g., recovery time objective and recovery point objective).

       Recommendations
                We recommend that the TSA CIO:

                Recommendation #12: Take steps to ensure that server rooms are
                maintained within DHS' recommended temperature and humidity
                ranges.

                Recommendation #13: Continue efforts to improve the reliability
                of telecommunications circuits at ORD, and work with CBP to
                determine whether it is cost effective to use the redundant DHS
                OneNet circuits to provide TSA with alternate telecommunications
                services at ORD terminal locations.

Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                       Page 2S

                Recommendation #14: Ensure that all TSA servers at ORD are
                scanned annually.

                Recommendation #1S: Prepare the missing BIAs for the
                identified TSA systems operating at ORD.

       Management Comments and OIG Analysis
                We obtained written comments on a draft of this report from
                TSA's Administrator. We have included a copy of the comments
                in their entirety at appendix B. The Administrator concurred with
                our recommendations and also provided further information on
                actions that TSA has already taken to resolve reported deficiencies.
                These recommendations will be considered resolved but open
                pending verification of all planned actions.

                Recommendation 12

                In response to recommendation 12, TSA will work with contractors
                to ensure that the server rooms in its areas operate within DHS
                recommended temperature and humidity ranges. TSA will also
                install sensors and warning devices to alert personnel when the
                operating environment is not within the recommended ranges.

                OIG Analysis

                The actions being taken satisfy the intent of this recommendation.
                This recommendation is considered resolved, but will remain open
                until TSA provides documentation to support that the planned
                corrective actions are completed.

                Recommendation 13

                In response to recommendation 13, TSA will determine if it is cost
                effective to use DHS OneNet circuits or a local metropolitan area
                network to provide redundant communications.

                OIG Analysis

                The actions being taken satisfy the intent of this recommendation.
                This recommendation is considered resolved, but will remain open
                until TSA provides documentation to support that the planned
                corrective actions are completed.



Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                       Page 29

                Recommendation 14

                In response to recommendation 14, TSA scans its servers annually.
                TSA has also assessed its servers for vulnerabilities and is working
                to correct them.

                OIG Analysis

                The actions being taken satisfy the intent of this recommendation.
                This recommendation is considered resolved, but will remain open
                until TSA provides documentation to support that the planned
                corrective actions are completed.

                Recommendation 1S

                In response to recommendation 15, TSA has an enterprise-level
                BIA process to address mission-critical systems, including the
                TSANet. Additionally, TSA is starting a review to prioritize the
                development of BIAs for identified systems. TSA provided
                information on other supporting documents, including risk
                assessment, COOPs, and contingency plans.

                OIG Analysis

                The actions being taken satisfy the intent of this recommendation
                as they concern mission-critical systems. This recommendation is
                considered resolved, but will remain open until TSA provides
                documentation to support that the planned corrective actions are
                completed.




Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                       Page 30

Appendix B
Management Comments to the Draft Report




                                                                     ·e.
                                                                                 1300 Penruylnn1a Avenue NW
                                                                                 Washington. DC 20229


                                                                                 US. Customs and
                                                                                 Border Protection
                                                                               September 16. 20 II



           MBMORANDUM FOR: FRANK DEFFER
                           ASS ISTANT INSPECTOR OENERAL FOR IT AUDITS
                           DEPARTMENT OF HOMELAND SECURITY

           FROM:                    Assistant commiSSione~     '/' _ _______
                                    Office of Internal Affairs ~¥
                                    U.S. Customs and Bord r Protection

           SUBJECT:                 Response to the Office of Jnspector General ' s Draft Report
                                    Entitled, "Technical Security Eva luation ofDHS Activities at
                                    Chicago O'Hare International Airport"

           Thank you for providing us with a copy of your draft report entitled "Technical Security
           Evaluation of DHS Activities at Chicago O'Hare International Airport," and the
           opportunity to comment on the issues in th is report.

           The report contains seven recommendations directed to U.S. Customs and Border
           Protection (CBP). A summary of CBP actions and corrective plans to address the
           recommendations is provided below:

           Reco mm end ation # 1; Relocate telecommunications equipment so that the potential for
           accidental damage is minimized; obtain temperature and humidity sensors and ensure that
           server rooms are maintained within DHS' recommended ranges.

           CDP Response; Concur. CBP will move the two racks from the side switch rooms to a
           future identified location and relocate the cables to that new location. CBP will purchase
           temperature and humidity sensors with memory for each room identified by the audit.
           These actions are dependent upon funding.

           Completion Date: October 1, 201 1

           Recommendation #2: Explore near- and long-tenn solutions to its business continuity
           issues at ORD. Potential solutions would include purchasing additional extended¥life
           laptop batteries, analyzing how many passengers per hour are processed using PALS
           laptops, and purchasing enough PALS laptops to process ORO passengers within an
           acceptable time frame.




       Technical Security Evaluation of DHS Activities at Chicago O’Hare International Airport


                                                      Page 32

Appendix B
Management Comments to the Draft Report


                                                             2




             Recommendation #3:                                        to estab li sh red undant
                                                                         locations.

             e Rr Response: Concur. At the International Mail Oranch (C llIOO4). CB P has determined
             that it is not cost effective to establish redundant telecommunications services at
             C HI004A because it has fewer than 50 users.

             CBP has determined that 99 15 Bryn MU\\T CI:3P Port Uft-Ice (RJ\-r1 007A) is a candidate
             for redundant telecommunications serv ices. A Notice of Finding and Recommendation
             was acct=pLtx.I anu a site design/Lt:ch rdresh has been completed for the site to bring it to
             current spcci fications.

             CBP has determined that it is not cost effective 10 establi sh redundant telecommuni cations
             services at 9450 Dryn Mawr (RMT008A) because it has fewer than 50 users.

             Completion Date: Complete. CBP will prov ide 5upponing documentation to 010 .

             H.ecommendntioD #4: Perform scans ofCB P's
             vulnerabil iti es, and then take corrective actions
                                                                                 ,el;:~~:~:;\~'
                                                                                 u         I i
                                                                                               elts~O identify

         ~Concur.                     CBP routinely performs vulnerabi lity assessment scans on
         _                  CB P is in the process of decommissioning these servers and repl acing
             them wit h Windows File and Print servers.

             Completion Date : TBD

             H.ecommendntion #5: Updnte the Central Field LAN's FIPS 199 Workbook with al l
             relevant infonnation.

             eRP Response: Concur. Thi s recommendation is now obsolete as CDP has removed all
             PALS data from the Central Field LAN and therefore it no longer contains personally
             ide ntifiable informati on (PH). The FIPS 199 is currentl y moderate. Since there ifno PH ,
             there is no reason for the system to be considered high .

             Cnmrletion Date: Com plete. CBP respectfu ll y requests closure of this recommendation.

             Recommendation ff6: Prepare a PIA tor the Central Field LAN.




       Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                                          Page 33

Appendix B
Management Comments to the Draft Report



                                                         3




           Completion Dllte: Complete. CBP is requesting closure of this recommenuation hased
           on the removal of all PALS data from the Central Fie ld LAN.

           Recommendation 147: Prepare the missing BIAs for the identified CBP systems operating
           aIORD.

           CBP Response: Concur. CB P will prepare the Rusiness Impact Analysis' (BIAs) for the
           Central Field LA!'-., (Jlobal Entry, Non-Intrusive Inspection (N il) Sylt::ms, and TEeS .
           However, CBP will not be completing a HIA for DHS DncKet as it is a General Support
           System (GSS), flot an operational system. DHS does not have a policy requirement to
           complete a BIA at the system level.

          As the ass for DH S, all OneNet systems have High availability or red undancy built in.
          OneNe! can provide metfies to a componenl or application to help them determine the
          BIA of their system. One~et offers the opportunity for m.ission critical sites/ systems to
          order diverse services to achieve even higher avai lability standards, but the detemlination
          and o rdering of these servic~s is a Component responsibility.




       Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                                     Page 34

Appendix B
Management Comments to the Draft Report



                                                          4


           As the ass, il is inappropriate for OneN"et to quantify in a BrA what is critical. Criticality
           of systems is assigned at the application level. I.E., OrleNet cannnt Jt!cide whal systems
           are critical tor TEeS, or other applications.

           DHS OneNet and Redu ndant TnJsted Internet Connection (RTIC) provide redundancy
           based on the fact that they have a "I-IlGH" CIA (Confidentiaiity/lntegrity/A vai labil ity)
           categorization across the board.

           Completio n Date: August 30, 2012

           \\lith regard to the sensitivity of the draft report, CBP has identified infonnation within the
           repOit requi ri ng re~ l rided public access based on a designation of "For Official Lse Only'"
           as it could be used by adversarial parties which seek to cause harm either to the e RP
           systems or to individuals who would be aftected by unauthorized d isclosure of the
           information. Therefore, CBP also includes sensitivity and technical comments to the draft
           report in an attachment to this letter.

           If you have any questions regarding this response, please contact me or have a member of
           your staff contact Ms. Ash ley Roone, CBP Audit Liaison, at (202) 344·2539.

           Attachments




       Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                                      Page 3S

Appendix B
Management Comments to the Draft Report




                                                                           U.S. Depanl1ltnt or lI ol1ltlllid SH Url lY
                                                                           lOO 12th Sln:I;l, SW
                                                                           Wpghington, D C. 20536


                                                                           u.s. Immigration
                                                                           and Customs
                                                                           Enforcement

                                                 October 5, 2011


         MEMORANDUM FOR: Frank Deffer
                         Assistant Inspector General for Information Technology
                         Office of Inspector~'  eral

         FROM:                     Radha C. Sekar
                                   Chief Financial Of I   r

         SUI3JECT:                 ICE Response for Recommendations 8-11 of the OIG Draft Report:
                                   "Technical Security Evaluation ofDHS Activities at Chicago O ' Hare
                                   International Airpon", dated Allgust 3, 20 11.


         U.S. Immigration and Customs Enforcement (ICE) appreciates the opportunity to comment on
         the four recommendations directed towards ICE in the subject draft report, Attached is our
         response [0 OICi recommendations 8-11 for action by ICE.

         ICE is requesting OIG consider recommendations 8. 9 and 10 closed. We are requesting
         recommendatiun II he considered resolved and open pending compleLion of ICE's new Security
         Authorization package.

         Shuuld yuu have any queslion s or l:um:ems, please l:onLact \.1ichae1 Moy , OIG porlrolio
         Manager at (202) 732-6263 or by c-mail at MiehacI.Moy@dhs.go_v.

         Attachment




                                                                           www.ice.gov




       Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                                    Page 36

Appendix B
Management Comments to the Draft Report



                                    u.s. Immigration and Cn stoms E nforcement
                                               Respon se to UIG Draft Report:
               T ech . Sec llrit)-' E v a l. QrDHS Activities ~1 Chica gu O' H :ue Tn1'1. Airport (ORO)
                                                Recommendation s 8 - 11


         Recommendation # 8: Improve physical security and environmental controls at ORO sites by
         obtaining smoke detectors, fire extinguishers, and humidity/temperature sensors; ensure that
         ~erver TUoms are mainlaim::u within DHS' rt;commended temperature and hum idity ranges; and
         provide barriers protecting IT infrastructure from being inadvertently damaged in a supply room.

         ICE Respouse # 8 : ICE does oat concur with this recommendation. ICE recognizes the
         physical and environmental deficiencies at the ORD site. However, as a tenant of a dual-use
         (commercial1government) faci lity, ICE cannot apply the recommended modifications to the
         faci lity without approval from Bui lding .\fanagement. Bui lding Management has stated that they
         cannot retrotit a single sui te in the dual-use fac ility for a single tenant. Additionally, ICE cannot
         relocate to another faciliry until funds become available and a new facility is located. ICE must
         accept the physical and environmental risks associated with the c·urrent facility. rCE requests
         OrG consider this recommendation as closed.


         Recommendation # !): Detennine ifit is cost-effective to establish redundant
         telecommunications services at the two identi fied ICE locations.

         ICE Response # !) : ICE does not concur with this recommendation. ICE OCIO Enterprise
         Opt:rations has a prm;t:ss fur udt:rmining whkh sites Te4uirt: rt:dundanl cummunicaliulls. Ba~t:<1 un rouyh
         estimates, there are well over bOO satelhte field sites throughout the country. Based on the numbers, leE
         has dctcrrnined that to install and maintain redundant cirCUIts for these mainly small sites would cost
         millions of doll2.fS. The vast maj ority ofRACIOPR Offices are located within proximity of the SAC
         Officc whcrc redundancy cxists. Continuity ofOpcrations is currently in place throughout ICE/OCIO if
         andlor when the need should arise . Therefore, ICE requests OIG consider this recommendation
         closed.


         Recommendation # 10: Prepare a BlA for the SAC Midwest GSS.

         ICE Response # 10: ICE does not concur with this recommendation. ICE does not currently
         have a policy in place requiring Business Impact Analysis (BlA) for individual systems and is
         not aware ofa DHS standard or temp late for completing one to a specific VHS standard.
         However, the ICE Disaster Recovery Branch mai ntains an enterprise-level BIA for ICE and
         updates it as required. As mentioned in the report, SAC Midwest GSS (General Support System)
         is currently undergoing a process of merging into an overarching nationwide l'ype Accreditation
         package. ICE will have BrA when the new nationwide Type Accreditation package receives an
         ATO. ICE requests OIG consider this recommendation as closed.




       Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                                        Page 37

Appendix B
Management Comments to the Draft Report

                                       Respon se to OIG Draft Report:
               Tecb. Security Eval. Of DBS Activities at Chicago O ' Hare Int' l. Airport (ORD)
                                            R ~l.:llmmelldaljnns   8 - 11


         Recommendation # II : Continue to establish nationwide systems to resolve known
         deficiencies with the ICE Midwest GSS accreditation boundaries.

         ICE Response # 11: ICE concurs wi th this recommendation. ICE is currentl y developing a
         new Security Authorization package to address workstations, file servers, and print servers at
         Chicago O'Hare Airpon (ORD) and other fie ld offices. rCE will assess the accreditation
         boundary at ORD and other sites prior to obtaining the new Authorization-ta -Operate.

         ICE requests OIG consider lhis recommendation as resolved and open pending completion of
         [eE's assessment and new Security Authorization package. Estimated comp letion date is
         December 20 11.




       Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                                    Page 3S

Appendix B
Management Comments to the Draft Report



                                                                                 U$. OqllrtmUI or lIomr lnd SKurily
                                                                                 601 So\llh 12th Street
                                                                                  Arllft&torI. VA 20598

           OCT    6 lon                                                          Transportation
                                                                                 Security
                                                                                 Administration
                                                 INFORMATION


        MEMORANDUM FOR:               Charles K. Edwards,
                                      Acting Inspector Genera l
                                      U.S. Depanment ofHomelan~        Sp
        FROM :                        John S. p i , t o l d       J.    i./   ~
                                      Admin istratoO '

        SUBJECT:                       Draft Report : Technical SecllrilY EVlIllltlliOIl of
                                       DI-IS Aclivities (l{ Chicago 0 'f/are International Airport
                                       OIG Project No. 11-005-ITA-DHS




        This memorandum is the Transportation Security Administration (TSA) formal response to a
        July 20 It report from the U.S. Department of Homeland Security (DHS) Office of Inspector
        General (O IG) titled Technical Security Evaillation of DHS Actil1ities at Chicago 0 'J-!are
        Internarimltll Airport. TSA recognizes the imporlance of effective management, and operational
        and technical controls to protect sens itive infonnation processed through TS A assets, and we
        appreciate the opportunity to comment on OIG 's draft report .

         Background

         As part ofOIG 's Technical Secu rity Evaluation Program, OIG evaluated DHS components'
         information-technology securi ty at Chicago O ' Hare International Airport (ORO). On April 20,
         2011, O IG commenced its audit ofTSA, U.S. Customs and Border Protec tion (CBP). and U.S.
         Immigration and Customs Enforcement assets at ORO. The audit ' s objective was to determine
         wh ether the information-technology security controls implemen ted at ORO had de fi ciencies that,
         if exploited, could result in the loss ofconlident iality. integrity, and availability or the
         components' information-technology systems. The audi t included staff interviews. a review or
         app licable polic ies and procedures, technical tests ofintemal controls, and onsite inspections of
         areas with TSA assets.

         Discussion

         As noted in the draft report, OIG determ ined that TSA could strengthen operational controls over
         server rooms regarding temperature and humidity. OIG, however, did not detect the deficiency
         of any additional physical security controls that protect the TSA network and devices. A lack of
         cost effective telecommunications services was noted within the O IG report; however, ORO has




       Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                                     Page 39

Appendix B
Management Comments to the Draft Report


                                                                                                          2

       mitigati ng factors in p lace. D IG found missing Business Impact Assessments (B IAs) for fou r
       systems at ORD. BIAs are used to help identify and protect critical Information Technology (IT)
       systems. TSA currently conducts BIAs only fo r identified mission-critical systems.

        DIG has acknowledged that TSA has decommissioned servers, adjusted the temperature and
        humidity in two of the other server rooms, and is working to bring the temperature and humid ity
        in the remaining three server rooms 10 be withi n DHS guidance. TSA concurs with the fou r
        recommcndaiions below and appreciates D IG's efforts 10 improve the protection ofTSA
        infrastructure at ORD.

        O IG Recommen da tion # 12: Take steps to ensure that server rooms are main tained within
        DHS' recommended temperature and humidity ranges.

        TSA Conc urs : This recommendation is for the operati ng environments of ORD IT cabinets that
        house servers. There were locations specifically identified by the OIG that were not in
        compliance with the DHS operational requirement TSA has laken the fo llowing steps to ensure
        that thc temperature and humid ity ranges at these locat ions are operati ng per DHS requirements:

           •   The ORO IT Specialist is curre ntly working with the GE Morpho and L3 contracting
               compan ies to address the temperature and humidity leve ls in the server rooms.

           •   A Netbotz device has been implemented to alert the appropriate personnel if temperature
               and humidity thresholds are exceeded.

           •   The Terminal 2 Mezzani ne location currently has a standalone Liehert temperature and
               humidity control unit im plemented with an operat ing temperature of 65 degrees
               Fahrenheit and 45 percent relat ive humid ity respectively. The Liebert temperatu re and
               humidity unit sounds an alarm when operating temperature and humidity thresholds are
               exceeded .

        O IG Recommeodation # 13: Continue efforts to improve the re liab ili ty of Ie Iecommunications
        circuits at ORD. and work with CBP 10 determine whether it is cost-effective to usc the
        redundant DHS OneNet circuits to prov ide TSA with alternate telecommunications services at
        ORO terminal locations.

        TSA Concurs: TSA is working with CBP to determine whether it is cost-effective to use the
        redundant OHS One et circuits to provide TSA with cost-effective redundancy at ORO terminal
        locations. Add itionally. TSA is investigating the use of local Metropolitan Area Network
        (MAN) at ORO for improved reliability. while allhe same time reducing costs by consolidating
        the number of circuits by interconnecting the term inals via optical fiber ,

        ole Recommenda tion # 14:      Ensure that all TSA servers at ORO are scanned annually.

        TSA Concu rs: TSA servers will be scanned annually. The servers and T ransportation Security
        Equipments have been assessed (via automated scans and manual configuration checks) for
        vulnerab ilities and TSA is worki ng to resolve them .




       Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                                     Page 40

Appendix B
Management Comments to the Draft Report


                                                                                                       3


       Recommendation #15: Prepare the missing BIAs for the identified TSA systems operating at
       ORO.

       TSA Concurs : TSA currently has an enterprise-level 8 1A process to address systems that have
       been identified as mission-critical. TSA's Ortice of Information Techno logy (O IT) is currently
       starting a review of all accredited information technology systems for mission criticality and
       current recovery strategy to update the IPOB's "Mission Critical Systems List" and prioritize the
       development of BIAs and continuity plans for the identified systems.

       Additionally. ORO has compensating controls to include a Risk Assessment (RA), Continuity of
       Operations (COOP) Pl an, and Contingency Plan (CP ). The RA facilitates the risk of loss if any
       offices at ORO become temporarily unavailable or experience a disruption of services such as
       network outages and power outages. The COOP Plan contains detailed information fo r assuring
       the safety of personnel and the continuity of mission essential functions in the event that normal
       operat ions are severely disrupted. The Security Technology Integrated Program General Support
       System (ST I? GSS) also has a C P and procedures established to recover the system following a
       disruption. Supporting documents from the STlP GSS have already been provided.

        Auachment: Draft Report: Technical Secllrity Evaillarion ofDHS Activities at Chicago O'Hare
        International Airport - Sensitive Security Information




       Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                                    Page 41

Appendix D
Report Distribution


                        Department of Homeland Security

                        Secretary
                        Deputy Secretary
                        Chief of Staff
                        Deputy Chief of Staff
                        General Counsel
                        Executive Secretariat
                        Director, GAO/OIG Liaison Office
                        Assistant Secretary for Office of Policy
                        Assistant Secretary for Office of Public Affairs
                        Assistant Secretary for Office of Legislative Affairs
                        Under Secretary for Management
                        DHS CISO
                        DHS CISO Audit Liaison
                        CBP CIO
                        CBP Audit Liaison
                        ICE CIO
                        ICE Audit Liaison
                        TSA CIO
                        TSA Audit Liaison

                        Office of Management and Budget

                        Chief, Homeland Security Branch
                        DHS OIG Budget Examiner

                        Congress

                        Congressional Oversight and Appropriations Committees, as
                        appropriate




        Technical Security Evaluation of DHS Activities at Chicago O'Hare International Airport


                                               Page 43

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
